No. 19A-_____
IN THE
SUPREME COURT OF THE UNITED STATES
________________________
JOSEPH R. MULLINS,
v.

Applicant,

JOSEPH E. CORCORAN AND GARY JENNISON,

Respondents.

_________________________

APPLICATION FOR EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
MASSACHUSETTS SUPREME JUDICIAL COURT
_________________________
Jonathan M. Albano

Counsel of Record

MORGAN, LEWIS & BOCKIUS LLP
One Federal Street
Boston, MA 02110
T: (617) 341-7700
F: (617) 341-7701
jonathan.albano@morganlewis.com

Counsel for Joseph R. Mullins

APPLICATION FOR EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME JUDICIAL COURT OF MASSACHUSETTS
To the Honorable Stephen G. Breyer, Associate Justice for the United States
Court of Appeals for the First Circuit:
1.

In accordance with this Court’s Rules 13.5, 22, and 30.3, applicant Jo-

seph R. Mullins respectfully requests an extension of 30 days to file a petition for a
writ of certiorari. The petition will challenge the decision of the Massachusetts Appeals Court in Mullins v. Corcoran, 95 Mass. App. Ct. 1107, 124 N.E.3d 706, review

denied, 482 Mass. 1106, 127 N.E.3d 266 (2019) (attached as Exhibit A). The Massachusetts Appeals Court issued its opinion on April 10, 2019. The Massachusetts Supreme Judicial Court entered an order denying further appellate review on June 27,
2019 (attached as Exhibit B). Without an extension, the petition for a writ of certiorari would be due on September 25, 2019. With the requested extension, the petition
would be due on October 25, 2019. This Court’s jurisdiction will be based on 28 U.S.C.
§ 1257(a).
2.

The decision below affirmed a $17.5 million damages award (inclusive

of interest) against the applicant, a minority shareholder in a closely held corporation, for the act of filing a breach of fiduciary duty lawsuit against respondents, the
corporation’s majority shareholders. The basis for the decision was an assessment of
the applicant’s subjective motivations in filing suit, without regard to the objective
merits of the claims he asserted.
3.

Under the First Amendment, unless litigation is a “sham” both “objec-

tively and subjectively,” it may not form the basis for a damages award. BE & K
1

Constr. Co. v. NLRB, 536 U.S. 516, 525-26 (2002); Cal. Motor Transp. Co. v. Trucking
Unlimited, 404 U.S. 508, 510 (1972). See generally E. R.R. Presidents Conference v.
Noerr Motor Freight, Inc., 365 U.S. 127 (1961); United Mine Workers of Am. v Pennington, 381 US 657 (1965). A claim is not objectively baseless unless “no reasonable
litigant could expect success on the merits” of the claim. Prof’l Real Estate Inv’rs,

Inc. v. Columbia Pictures Indus., Inc., 508 U.S. 49, 60 (1993). “Only if challenged
litigation is objectively meritless may a court examine the litigant’s subjective motivation[.]” Id. at 60-61 (citing E. R.R. Presidents Conference, 365 U.S. at 144).
4.

By affirming the award of damages based solely on an assessment of the

applicant’s “subjective motivation” for filing suit—without regard to whether the
claims were objectively reasonable—the decision deepens a conflict between courts of
different states and circuits concerning whether and the extent to which the Noerr-

Pennington doctrine preempts the common law tort of abuse of process and other
state law theories of recovery for allegedly abusive litigation. The issue has divided
courts and commentators. See, e.g., Protect Our Mountain Env’t, Inc. v. Dist. Court,
677 P.2d 1361, 1365, 1369 (Colo. 1984) (recovery of damages based on the filing of a
lawsuit requires proof that the claims were both objectively and subjectively baseless); Pound Hill Corp. v. Perl, 668 A.2d 1260, 1264 (R.I. 1996) (two-part objective and
subjective test applies to tort claims of abuse of process and interference with contractual relations); DeVaney v. Thriftway Mktg. Corp., 124 N.M. 512, 520, 953 P.2d
277, 285 (1998) (the filing of a proper complaint with probable cause, and without any
overt misuse of process, will not subject a litigant to liability for malicious abuse of

2

process, even if it is the result of a malicious motive), overruled on other grounds,

Durham v. Guest, 145 N.M. 694, 204 P.3d 19 (2009), abrogated on other grounds,
Fleetwood Retail Corp. of N.M. v. LeDoux, 142 N.M. 150, 164 P.3d 31 (1997). Compare Grip-Pak, Inc. v. Illinois Tool Works, Inc., 694 F.2d 466, 471 (7th Cir. 1982) (“It
takes a rather free-wheeling imagination to extrapolate from the California Motor

Transport opinion a principle that if applied across the board would, as we have suggested, make the tort of abuse of process invalid under the First Amendment; and we
decline to do so[.]”); Drill Parts & Serv. Co. v. Joy Mfg. Co., 619 So. 2d 1280, 1288
(Ala. 1993) (“lack of probable cause is not a necessary element of abuse of process”);

Anchorage Joint Venture v. Anchorage Condominium Ass’n, 670 P.2d 1249, 1250-51
(Colo. Ct. App. 1983) (“The right of access to the courts seeking redress from actions
of a governmental entity ... [is] distinguished from suits between private parties ....”).

See generally Joseph B. Maher, Comment, Survival of the Common–Law Abuse of
Process Tort in the Face of a Noerr–Pennington Defense, 65 U. Chi. L.Rev. 627, 640
(1998) (Noerr–Pennington defense properly applies only to certain federal statutory
claims).
5.

The applicant intends to file a petition for a writ of certiorari challenging

both of these rulings. The petition will address whether the First Amendment permits the award of damages based upon the filing of a lawsuit concerning a commercial
dispute absent proof that the action was both objectively and subjectively baseless.
6.

Extraordinary circumstances justify the grant of a 30-day extension.

On May 8, 2019, the applicant filed a petition for protection under Chapter 11 of the

3

United States Bankruptcy Code. In re Joseph R. Mullins, Bankr. Mass. No. 19-11574.
On June 21, 2019, his wife of 50 years died. He has since been required to devote a
substantial portion of his time attending to his obligations as a Chapter 11 debtor-inpossession. The extension will permit him to adequately prepare a petition for certiorari while also discharging his obligations as a Chapter 11 debtor.
7. For all of these reasons, the applicant respectfully requests that the due
date for his petition for writ of certiorari be extended by 30 days, to and including
October 25, 2019.
Respectfully submitted,

/s/ Jonathan M. Albano
Jonathan M. Albano

Counsel of Record

MORGAN, LEWIS & BOCKIUS LLP
One Federal Street
Boston, MA 02110
T: (617) 341-7700
F: (617) 341-7701
jonathan.albano@morganlewis.com

Counsel for Joseph R. Mullins
Dated: September 19, 2019

4

